Appendix

Case: 20-1518

Document: 24

Page: 1

Filed: 03/08/2021

®mtet> States Court of Appeals
for tlje jfeberal Circuit
ROY J. MEIDINGER,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1518
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01521-CFL, Senior Judge Charles F. Lettow.
Decided: March 8, 2021
ROY J. Meidinger, Fort Myers, FL, pro se.
Antonia Ramos Soares, Commercial Litigation
Branch, Civil Division, United States Department of Jus­
tice, Washington, DC, for defendant-appellee. Also repre­
sented by Jeffrey B. Clark, Robert Edward Kirschman,
Jr., Patricia M. McCarthy.
Before Newman, Lourie, and O’Malley, Circuit Judges.

Case: 20-1518

2

Document: 24

Page: 2

Filed: 03/08/2021

MEIDINGER V. UNITED STATES

Per Curiam.
Roy J. Meidinger filed suit in the United States Court
of Federal Claims, seeking damages for breach of an as­
serted contract with the United States based on his sub­
mission of whistleblower information to the Internal
Revenue Service (IRS) in accordance with 26 U.S.C.
§ 7623. He states that “the submission of the whistle­
blower claim [identifying tax evaders] is the formation of a
contract” and “the IRS breached its contractual duties and
responsibilities to collect the taxes [and] do any investiga­
tions.” Meidinger Compl., S.Appx. 12.1 He seeks damages
for breach of contract.
The Court of Federal Claims held that the submission
of whistleblower information did not create a contract with
the IRS, and dismissed the complaint.2 We affirm the dis­
missal.

Background
In 2009 Mr. Meidinger submitted whistleblower infor­
mation to the IRS pursuant to 26 U.S.C. § 7623. He states
that he provided “detailed information and expert support
documentation” concerning “one million taxpayers in the
healthcare industry that are involved in a kickback
scheme.” CFC Op. at 493. Relevant statutory provisions
include:

1 “S.Appx” refers to the Supplemental Appendix filed
by the government. “Appx” refers to the Appendix filed by
Mr. Meidinger.
2 Meidinger u. United States, 146 Fed. Cl. 491 (2020)
(“CFC Op”).

Case: 20-1518

Document: 24

Page: 3

Filed: 03/08/2021

MEIDINGER V. UNITED STATES

3

26 U.S.C. § 7623. Expenses of detection of under­
payments and fraud, etc.
(a) In general.
The Secretary, under regulations prescribed by the
Secretary, is authorized to pay such sums as he deems
necessary for—
(1) detecting underpayments of tax, or
(2) detecting and bringing to trial and punish­
ment persons guilty of violating the inter­
nal revenue laws or conniving at the same,
in cases where such expenses are not otherwise pro­
vided for by law. Any amount payable under the pre­
ceding sentence shall be paid from the proceeds of
amounts collected by reason of the information pro­
vided, and any amount so collected shall be available
for such payments.
(b) Awards to whistleblowers.
(1) In general.
If the Secretary proceeds with any administra­
tive or judicial action described in subsection
(a) based on information brought to the Secre­
tary’s attention by an individual, such individ­
ual shall, subject to paragraph (2), receive as
an award at least 15 percent but not more than
30 percent of the proceeds collected as a result
of the action (including any related actions) or
from any settlement in response to such action
(determined without regard to whether such
proceeds are available to the Secretary). The
determination of the amount of such award by
the Whistleblower Office shall depend upon the
extent to which the individual substantially
contributed to such action.

Case: 20-1518

Document: 24

Page: 4

Filed: 03/08/2021

MEIDINGER v. UNITED STATES

4

IRS Form 211, entitled “Application for Award for Original
Information,” starts the procedure by which a whistle­
blower obtains an award under § 7623. “A claimant must
file a formal claim for award by completing and sending
Form 211 ... to be considered for the Whistleblower Pro­
gram.” Internal Revenue Service, Cat. No. 16571S, In­
structions for Form 211, Application for Award for Original
Information (2018).
Section 7623 provides for appeal of IRS determinations
concerning whistleblower awards. Until 2006 the Court of
Federal Claims decided such appeals. In 2006 the appeal
path was changed to the Tax Court. Statutory provisions,
as here relevant, include:
26 U.S.C. § 7623(b)
ie if *

(4) Appeal of award determination.
Any determination regarding an award under par­
agraph (1), (2), or (3) may, within 30 days of such
determination, be appealed to the Tax Court (and
the Tax Court shall have jurisdiction with respect
to such matter).
•k. k *

(6) Additional rules.
(A) No contract necessary.
No contract with the Internal Revenue Service
is necessary for any individual to receive an
award under this subsection.
Mr. Meidinger, in 2009, filed a Form 211 Application. The
IRS acknowledged receipt of the information, but did not
take administrative or judicial action against the accused
persons. The IRS notified Mr. Meidinger of that determi­
nation, as provided by IRS Manual § 3.08.

Case: 20-1518

Document: 24

MEIDINGER v. UNITED STATES

Page: 5

Filed: 03/08/2021

5

Mr. Meidinger appealed in the Tax Court, in accord­
ance with § 7623(b)(4). He alleged abuse of discretion by
the IRS in denying his whistleblower award, and failure of
the IRS to adequately explain its determination not to in­
vestigate his information. He stated that the IRS created
a contract when it confirmed receipt of his Form 211 Appli­
cation, thus obligating the IRS to investigate the infor­
mation and to pay the statutory award. The IRS responded
that an award was not appropriate because the IRS had
not taken administrative or judicial action or collected any
tax or penalty based on the information he provided.
The Tax Court held that it lacked authority to order the
IRS to investigate or conduct an administrative proceeding
or initiate judicial action. The court granted summary
judgment in favor of the IRS. Meidinger v. Comm’r of
I.R.S., No. 16513-12W (U.S.T.C. 2013).
Mr. Meidinger appealed the Tax Court’s decision to the
Court of Appeals for the District of Columbia Circuit. That
court affirmed that Mr. Meidinger was not eligible for a
whistleblower award “because the information appellant
provided did not result in initiation of an administrative or
judicial action or collection of tax proceeds.” Meidinger v.
Comm’r of I.R.S., 559 F. App’x. 5, 6 (D.C. Cir. 2014) (quo­
tation marks omitted). The court stated that neither the
Tax Court nor the D.C. Circuit has authority to order the
IRS to act on a whistleblower’s submission of information.
Id.
In May 2018, Mr. Meidinger filed another Form 211
Application, with the same information as his previous
submission. The IRS acknowledged receipt, but again did
not act on the information, advising Mr. Meidinger that the
information was “speculative” and “did not provide specific
or credible information regarding tax underpayments or vi­
olations of internal revenue laws.” Meidinger v. Comm’r of
I.R.S., No. 16585-18W, at 1 (U.S.T.C. 2018).

Case: 20-1518

6

Document: 24

Page: 6

Filed: 03/08/2021

MEIDINGER V. UNITED STATES

Mr. Meidinger again appealed to the Tax Court. The
Tax Court granted the IRS’s motion to dismiss for failure
to state a claim, stating that no award obligation arose be­
cause the disclosure did not lead to any administrative or
judicial proceeding or collection of any tax. Id. at 2.
Mr. Meidinger again appealed to the District of Colum­
bia Circuit. He stated that his interactions with the IRS
created an implied-in-fact contract that had been breached
by the IRS. The D.C. Circuit affirmed the decision of the
Tax Court. In its opinion the Circuit stated that “[ijnsofar
as [Mr. Meidinger] seeks to pursue a breach of contract
claim against the Internal Revenue Service, such a claim
is properly filed in the U.S. Court of Federal Claims.”
Meidinger v. Comm’r of I.R.S., 771 F. App’x. 11, 12 (D.C.
Cir. 2019). The court recited the Tucker Act:
28 U.S.C. § 1491(a)(1)- The United States Court
of Federal Claims shall have jurisdiction to render
judgment upon any claim against the United
States founded either upon the Constitution or any
Act of Congress or any regulation of an executive
department, or upon any express or implied con­
tract with the United States, or for liquidated or
unliquidated damages in cases not sounding in
tort.
Id. (quoting 28 U.S.C. § 1491(a)(1)). Mr. Meidinger then
filed suit in the Court of Federal Claims. That court
granted the government’s motion to dismiss, leading to this
appeal.
Discussion
Questions of jurisdiction receive plenary review on ap­
peal. Petro-Hunt, LLC v. United States, 862 F.3d 1370,
1378 (Fed. Cir. 2017). Questions of statutory interpreta­
tion also receive plenary review. Adair v United States, 497
F.3d 1244, 1250 (Fed. Cir. 2007). In deciding a motion to
dismiss, a court is “obligated to assume all factual

Case: 20-1518

Document: 24

MEIDINGER v. UNITED STATES

Page: 7

Filed: 03/08/2021

7

allegations to be true and to draw all reasonable inferences
in plaintiffs favor.” Henke v. United States, 60 F.3d 795,
797 (Fed. Cir. 1995).
The Court of Federal Claims dismissed Mr. Meidinger’s
complaint on the ground of lack of subject matter jurisdic­
tion, stating that appeals concerning whistleblower awards
under 26 U.S.C. § 7623(b) are assigned exclusively to the
Tax Court. The Court of Federal Claims alternatively dis­
missed the complaint under Rule 12(b)(6) for failure to
state a claim for breach of contract, finding that no contract
existed between the IRS and Mr. Meidinger.
On appeal, it is unclear whether Mr. Meidinger argues
that the Court of Federal Claims had jurisdiction to make
an initial award under § 7623 or asserts the existence of a
contract even when no award would be recoverable under
§ 7623. As we discuss below, if it is the former, jurisdiction
over that claim lies solely within the purview of the Tax
Court. If it is the latter, as it appears more clearly to be,
he has failed to state a claim for the reasons set out in Mer­
rick v. United States, 846 F.2d 725, 726 (Fed. Cir. 1988).
Enacted in 2006, 26 U.S.C. § 7623(b)(4) authorizes the
Tax Court to receive appeals of claims arising from the
whistleblower award provision of the Tax Code. In DaCosta v. United States, 82 Fed. Cl. 549 (2008), the Court of
Federal Claims addressed, for the first time, the question
whether, under the new scheme, the Tax Court had exclu­
sive jurisdiction over § 7623 appeals. Reasoning by anal­
ogy to the Supreme Court’s decision in Hinck v. United
States, 550 U.S. 501 (2007), concerning the Tax Court’s ex­
clusive jurisdiction over IRS actions on interest abatement,
the court held that “claims based upon subsection
7623(b)(1) are within the exclusive jurisdiction of the Tax
Court.” DaCosta, 82 Fed. Cl. at 555. This conclusion was
reiterated in Capelouto v. United States, 99 Fed. Cl. 682,
691 (2011) (“Because Congress has vested the United
States Tax Court with subject matter jurisdiction over

Case: 20-1518

8

Document: 24

Page: 8

Filed: 03/08/2021

MEIDINGER v. UNITED STATES

suits to recover an award under section 7623(b), such suits
are beyond the jurisdiction of this court.”)- We agree with
the Court of Federal Claims’ analysis and hold that the Tax
Court has exclusive jurisdiction over claims based on
§ 7623. Thus, to the extent that Mr. Meidinger asserts a
claim under § 7623, dismissal of those claims for lack of ju­
risdiction was appropriate.
Mr. Meidinger further argues that he had a contract
with the IRS. He states he is seeking damages for breach
of that contract. Mr. Meidinger argues that a contract
arose because § 7623(b)(1) is an offer of payment for infor­
mation about tax evaders, which he accepted by providing
the Form 211 information. He states that the Court of Fed­
eral Claims erred in holding that neither an express con­
tract nor an implied-in-fact contract arose.
Mr. Meidinger’s contract claim fails. In Merrick v.
United States, 846 F.2d 725 (Fed. Cir. 1988) this court held
that an enforceable contract under § 7623 arises “only after
the informant and the government negotiate and fix a spe­
cific amount as the reward.” Id. at 726. No such negotia­
tion and agreement occurred on Mr. Meidinger’s
information.
Mr. Meidinger argues that the legislative purpose of 26
U.S.C. § 7623 is that the whistleblower payment obligation
arises upon submission of the whistleblower disclosure, as
demonstrated in the new version of § 7623(b)(6)(A) making
clear that no contract is needed to support an award. This
provision supports jurisdiction in the Tax Court to grant an
award absent a contract; it does not enlarge the jurisdiction
of the Court of Federal Claims. The Court of Federal
Claims correctly held that the submission of a whistle­
blower Application Form 211 does not create a contractbased obligation enforceable in that court.
Finally Mr. Meidinger argues that the D.C. Circuit
sent him to the Court of Federal Claims. The D.C. Circuit
indeed informed Mr. Meidinger that the Court of Federal

Case: 20-1518

Document: 24

Page: 9

MEIDINGER v. UNITED STATES

Filed: 03/08/2021

9

Claims has jurisdiction over claims founded on a contract
with the United States. The D.C. Circuit did not find that
such a contract existed, however.
Conclusion
The Court of Federal Claims correctly held that it lacks
jurisdiction over § 7623 whistleblower claims and that Mr.
Meidinger did not otherwise plausibly plead the existence
of a contract with the government. The dismissal of the
complaint is affirmed.
AFFIRMED

1

USCA Case #19-1021

Filed: 05/30/2019

Document #1790133

ffinitzb

Page 1 of 2

es (Eourt nf Appeals

For The District of Columbia Circuit

September Term, 2018

No. 19-1021

USTC-16585-18W
Filed On: May 30, 2019
Roy J. Meidinger,
Appellant
v.
Commissioner of Internal Revenue Service,
Appellee

ON APPEAL FROM THE UNITED STATES TAX COURT
BEFORE:

Tatel, Millett, and Rao, Circuit Judges
JUDGMENT

This appeal was considered on the record from the United States Tax Court and
on the briefs filed by the parties. See Fed. R. App. P. 34(a)(2); D.C. Cir. Rule 34(j). It is
ORDERED AND ADJUDGED that the Tax Court’s November 5, 2018 order
dismissing appellant’s petition for failure to state a claim be affirmed. The Tax Court
correctly concluded that, because the Internal Revenue Service did not initiate an
“administrative or judicial action” in response to the information provided by appellant,
appellant was not entitled to a whistleblower award pursuant to 26 U.S.C. § 7623(b)(1).
See Meidinger v. C.I.R., 559 Fed. Appx. 5, 6 (D.C. Cir. 2014) (per curiam); Simmons v.
C.I.R., 523 Fed. Appx. 728, 729-30 (D.C. Cir. 2013) (per curiam). Appellant’s assertion
that the district court was required to conduct discovery to determine whether the
Internal Revenue Service initiated an action based on his information was not raised in
the district court, and he has therefore forfeited that argument. See Flynn v. C.I.R., 269
F.3d 1064, 1068-69 (D.C. Cir. 2001) (“Generally, an argument not made in the lower
tribunal is deemed forfeited and will not be entertained absent exceptional
circumstances.”). The Tax Court also correctly concluded that it lacked authority to
order the Internal Revenue Service to initiate such an action. See Meidinger, 559 Fed.
Appx. at 6; Cohen, 550 Fed. Appx. 10, 11 (D.C. Cir. 2014) (per curiam); Simmons, 523
Fed. Appx. at 729.

USCA Case #19-1021

Document #1790133

ffinittb

Filed: 05/30/2019

Page 2 of 2

(Emvt ai appeals

For The District of Columbia Circuit

September Term, 2018

No. 19-1021

The remainder of appellant’s arguments on appeal are similarly unavailing.
Insofar as he seeks to pursue a breach of contract claim against the Internal Revenue
Service, such a claim is properly filed in the U.S. Court of Federal Claims. See 28
U.S.C. § 1491(a)(1) (“The United States Court of Federal Claims shall have jurisdiction
to render judgment upon any claim against the United States founded . . . upon any
express or implied contract with the United States . . . .”); see also Meidinger, 559 Fed.
Appx. at 6. Furthermore, appellant’s argument that the motion to dismiss in the Tax
Court was improperly filed lacks merit.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

Page 2

